CERTIFICATE OF SERVICE
NO. TBD
Mike Finnin Motors et al.
Petitioner(s)
v.
United States
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the MIKE
FINNIN MOTORS ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Elizabeth B. Perlogar
Solicitor General, US DOJ
Room 5616
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@usdoj.gov
Counsel for United States

Roger J. Marzulla
Marzulla Law, LLC
1150 Connecticut Avenue, NW
Washington, DC 20036
202-822-6760
roger@marzulla.com
Counsel for Respondents Taylor & Sons et al.

Dan Abramovich
August 11, 2021
SCP Tracking: Zanville-10740 El Marbea Lane-Cover White

